   Semiannual Report
    to the Congress




Office of Inspector General
           for the
Railroad Retirement Board


October 1, 2008 to March 31, 2009
                UNITED STATES RAILROAD RETIREMENT BOARD

                           OFFICE OF INSPECTOR GENERAL



                                    . April 30, 2009


The Honorable Michael S. Schwartz
Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report
provides a descriptive summary of our activities and accomplishments during the
period of October 1, 2008 through March 31, 2009. This report is submitted in
accordance with Section 5 of the Inspector General Act of 1978, as amended.
The Act requires that you transmit this report, along with any comments you may
wish to make, to the appropriate Congressional committees and subcommittees
within 30 days.

During this reporting period, we completed our audit of the RRB's Fiscal Year
2008 Financial Statements, issuing an unqualified opinion. In addition we:

   •	 reported the results on our audit of the agency's internal control over
      accounts payable;
   •	 prepared a briefing entitled Retirement Experience of the Employees of
      the Long Island Rail Road Under the Railroad Retirement Act; and'
   •	 developed an oversight plan for the American Recovery and

      Reinvestment of 2009.


Our criminal investigators achieved 29 criminal convictions, 16 indictments and
informations, 12 civil judgments and over $5 million in monetary
accomplishments.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                 Sincerely,


                                            ~~
                                                 Martin  ~Ckman
                                                 Inspector General

844 N RUSH STREET CHICAGO IL 60611-2092	                      Printed on recycled paper with soy ink
TABLE OF CONTENTS


INTRODUCTION

Railroad Retirement Board                                 1

Office of Inspector General                               2

EXECUTIVE SUMMARY

Office of Audit                                           3

Office of Investigations                                  4
Current Caseload                                          5

OCTOBER 1, 2008 – MARCH 31, 2009 ACCOMPLISHMENTS

Office of Audit                                           6
Opinion on the Financial Statements                       6
Report on Internal Control                                7
Report on Compliance with Laws
and Regulations                                           7
Management and Performance Challenges
Facing the Railroad Retirement Board                       8
Letter to Management                                      10
Audit of Internal Control Over Accounts Payable           11
Retirement Experience of the Employees of
the Long Island Rail Road Under the Railroad
Retirement Act                                            12
American Recovery and Reinvestment
Act of 2009                                               13
Management Decisions and Implementation                   14

Office of Investigations                                  15
Investigative Accomplishments                             15
Investigative Caseload Data                               16
Investigative Tools                                       16

Representative Investigations                             17
Disability Investigations                                 17
Unemployment & Sickness Insurance Investigations          20
Retirement/Survivor Benefit and Representative
Payee Investigations                                      22




Railroad Retirement Board – Office of Inspector General
TABLE OF CONTENTS


Railroad Medicare Investigations                          25
Civil Enforcement Results                                 27

Hotline Contacts                                          28

OTHER OVERSIGHT ACTIVTIES                                 29
Railroad Medicare Benefit Integrity                       29
Occupational Disability Program                           30
Occupational Disability Program Secondary Medical
Screening and Forms G-251a and G-251b                     30
Occupational Disability Program Integrity Process         31

OUTREACH                                                  33
Office of Inspector General                               33
Office of Audit                                           33
Office of Investigations                                  34

OPERATIONAL ISSUES                                        36
Reimbursement to the Agency                               36
National Railroad Investment Trust                        36

LEGISLATIVE & REGULATORY REVIEW                           37

APPENDICES
(A) Office of Inspector General Reports and Other
Publicly Available Documents Issued                       39
(B) Audit Reports with Questioned Costs or with
Recommendations that Funds Be Put to Better Use           40
(C) Report on Receivables, Waivers and Recoveries
       Office of Investigations                           41
       Office of Audit                                    42
(D) Significant Matters                                   43
(E) RRB Management Reports                                44
(F) Reporting Requirements                                50
(G) Acronyms                                              51
(H) Legal Citations                                       52




Railroad Retirement Board – Office of Inspector General
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



          INTRODUCTION
          Railroad Retirement Board
   The Railroad Retirement Board (RRB) is an independent agency in the
   executive branch of the Federal government. The Board consists of              The RRB is an
   three members who are appointed by the President of the United                 independent
   States with the advice and consent of the Senate. One Board member             agency in the
                                                                                  executive branch
   is appointed upon the recommendation of railroad employers, another
                                                                                  of the Federal
   member is appointed upon the recommendation of railroad labor                  government.
   organizations and the third, who is the Chairman, is appointed to
   represent the public’s interest. Board Members’ terms are five years in
   length and expire in staggered years.

   The RRB administers comprehensive disability, retirement-survivor and
   unemployment-sickness insurance benefit programs for the nation's
   railroad workers and their families. These programs are codified under
   the Railroad Retirement Act, 45 U.S.C. § 231, et. seq. and the Railroad
   Unemployment Insurance Act, 45 U.S.C. § 351 et. seq., respectively.
   The RRB also has administrative responsibilities for certain benefit
   payments under the Social Security Act and administers Medicare Part           The RRB paid
   B, the physician service aspect of the Medicare program, for qualified         $10.1 billion in
   railroad beneficiaries.                                                        retirement and
                                                                                  survivor benefits.
   The agency’s central mission is to pay accurate and timely benefits.
   According to fiscal year (FY) 2008 statistics, RRB paid $10.1 billion in
   retirement and survivor benefits to 598,000 beneficiaries. RRB also
   paid $80 million in net unemployment and sickness insurance benefits
   to 30,000 claimants. During FY 2008, the Railroad Medicare Part B
   carrier, Palmetto GBA, paid approximately $844 million in medical
   insurance benefits for 480,678 beneficiaries.




      Railroad Retirement Board – Office of Inspector General                 1
                    Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                          Office of Inspector General
                   The Inspector General is a Presidential Appointee, with Senate
                   confirmation, who serves as an independent and objective voice to both
                   the Board and the Congress. It is the Inspector General’s responsibility
                   to promote economy, efficiency and effectiveness in the RRB’s
The Inspector      programs. To that end, the Office of Inspector General (OIG) conducts
General is an      audits/evaluations, management reviews and inspections of RRB
independent and    programs and operations. As a product of its efforts, the OIG offers
objective voice.
                   recommendations for improvement to RRB management. The OIG
                   also identifies and investigates cases of waste, fraud and abuse in RRB
                   programs. The OIG works closely with Federal prosecutors and makes
                   the appropriate referrals for criminal prosecution, civil prosecution or
                   monetary recovery.

                   The OIG has three operational components: the immediate Office of
                   the Inspector General; the Office of Audit; and the Office of
                   Investigations. The OIG conducts operations from several locations:
                   the headquarters of the RRB in Chicago, Illinois; an investigative field
                   office in Philadelphia, Pennsylvania; and domicile investigative offices
The OIG
                   in Arlington, Virginia and San Diego, California.
conducts audits
and
investigations     The health and welfare of our nation’s railroad workers and their
related to RRB     families rely on the economy, efficiency and effectiveness of the RRB’s
programs and       programs.
operations.




                      Railroad Retirement Board – Office of Inspector General                 2
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



            EXECUTIVE SUMMARY
            Office of Audit
   The Office of Audit (OA) conducts financial, performance and
   compliance audits and evaluations of RRB programs. In addition, the              The OA
   OA develops the OIG’s response to audit–related requirements and                 conducts
   requests for information. During this reporting period, the OA:                  financial,
                                                                                    performance and
                                                                                    compliance
      •   issued its opinion on the RRB's financial statements for the prior        audits.
          fiscal year and the related reports on internal control and
          compliance in a single document published with agency financial
          statements in the RRB's Performance and Accountability Report;

      •   prepared the Inspector General's statement of Management and
          Performance Challenges Facing the Railroad Retirement Board
          for publication in the RRB's Performance and Accountability
          Report;

      •   published a "Letter to Management," detailing matters related to
          internal control identified during the financial statement audit;

      •   reported the results of its audit of internal control over accounts
          payable;                                                                  The OA
                                                                                    published six key
      •   prepared a briefing entitled Retirement Experience of the                 documents
                                                                                    during the
          Employees of the Long Island Rail Road Under the Railroad
                                                                                    semiannual
          Retirement Act; and                                                       period.

      •   developed an oversight plan for the American Recovery and
          Reinvestment Act of 2009.

   All audits and other publicly available documents completed during this
   reporting period are discussed in further detail on pages 6 through 13.




      Railroad Retirement Board – Office of Inspector General                   3
                    Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                          Office of Investigations
                   The Office of Investigations (OI) focuses its efforts on identifying,
                   investigating and presenting RRB benefit fraud cases for prosecution.
                   The OI conducts investigations throughout the United States relating to
                   the fraudulent receipt of RRB disability, unemployment, sickness,
The OI             retirement/survivor or Railroad Medicare benefits. The OI investigates
investigates and   railroad employers and unions when there is an indication that they
refers cases for
                   have submitted false reports to the RRB. The OI also investigates
prosecution.
                   allegations regarding agency employee misconduct and threats against
                   RRB employees. Investigative efforts can result in criminal convictions,
                   civil penalties, recovery of program benefit funds and/or administrative
                   sanctions.

                   From October 1, 2008 through March 31, 2009, the OI achieved:

                      •   29 convictions;
                      •   16 indictments and/or informations;
                      •   12 civil judgments;
                      •   $5 million in monetary accomplishments;
                      •   3 arrests; and
                      •   48 referrals to the Department of Justice.

                   RRB defendants, in the aggregate, were sentenced to 20 years in jail,
                   82 years of probation and 960 hours of community service. The RRB
                   received $263,684 in investigative recoveries from completed cases.
                   RRB benefits that are overpaid due to fraud and can be recouped
                   through RRB administrative recovery action are expressed as
                   investigative recoveries.

                   Examples of fraud cases closed during this reporting period are
                   discussed in more detail on pages 17 to 27.




                      Railroad Retirement Board – Office of Inspector General              4
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


          Current Caseload
   The OI’s current caseload totals 445 matters, representing almost
   $15.8 million in fraud against the RRB. The potential fraud losses by       The OI’s current
   case type are listed below.                                                 caseload totals
                                                                               445 matters,
                                 Number Percentage         Potential           representing
          Type of Case              of      of               Fraud             almost $15.8
                                  Cases   Cases             Losses             million in fraud
                                                                               against the RRB.
             Disability            217         49%        $8,062,356
     Unemployment/Sickness          80         18%          $527,168
            Retirement              40          9%        $1,689,768
             Medicare               35          8%        $3,961,011
              Other                 28          6%          $550,447
        Spouse/Dependent            19          4%          $884,679
      Representative Payee          12          3%          $123,251
        Railroad Employer           9           2%                 $0*
            Employee                2          0.4%                $0*
             Threats                2          0.4%                $0
        Commercial Fraud            1          0.2%                $0*


          *Potential fraud losses are undetermined at this time.




      Railroad Retirement Board – Office of Inspector General              5
                       Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                            OCTOBER 1, 2008 THROUGH
                            MARCH 31, 2009 ACCOMPLISHMENTS
                            Office of Audit

                   Congress established the OIG to provide independent oversight of the
                   RRB. Within the OIG, the mission of the OA is: (1) to promote
The OIG
                   economy, efficiency and effectiveness in the administration of RRB
provides
independent        programs; and (2) to detect and prevent fraud and abuse in such
oversight of the   programs. Through the Inspector General, the OA keeps Board
RRB                Members and the Congress informed of current and potential problems
                   and deficiencies in RRB operations. The OA also tracks the status of
                   progress towards corrective action.

                   Details regarding audits and other publicly available documents
                   completed during this semiannual reporting period follow.

                            Opinion on the Financial Statements –
                            November 6, 2008 1

                   Congressional report language for the FY 1997 appropriations law
                   directed the OIG to conduct the annual audit of the RRB’s financial
                   statements in-house with limited contractual assistance.
The OA issued
an unqualified     During October 1, 2008 through March 31, 2009, the OA completed its
opinion on the     audit of the RRB’s comparative financial statements for the fiscal years
RRB’s financial    ended September 30, 2008 and 2007. The OIG offered an unqualified
statements.        opinion on the financial statements, concluding that the financial
                   statements, including accompanying notes presented fairly, in all
                   material respects, in conformity with U.S. generally accepted
                   accounting principles, the financial position of the RRB, its consolidated
                   net cost of operations and changes in net position, and combined
                   budgetary resources as of and for the fiscal years ended
                   September 30, 2008, and 2007; and the financial condition of the
                   Railroad Retirement program as of January 1, 2008, 2007 and 2006.



                   1
                     The auditor’s opinion is dated as of November 6, 2008, except for matters relating to
                   the fair market value of the net assets of the NRRIT for which the date is November 17,
                   2008.


                        Railroad Retirement Board – Office of Inspector General                              6
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009




          Report on Internal Control

   In planning and performing the audit of the agency’s financial
   statements, the OA considered the RRB’s internal control over financial
   reporting and compliance. The OA considered internal control to                Auditors
   determine its procedures for auditing the financial statements and to          identified
   comply with Office of Management and Budget (OMB) audit guidance,              weaknesses
   not to express an opinion on internal control. The OA reported the             and significant
   following:                                                                     deficiencies in
                                                                                  internal
                                                                                  control.
      •   Significant deficiencies in program management and access
          controls make the agency’s information security program a
          source of material weakness in internal control.

      •   Financial accounting controls cannot be relied upon to ensure
          that material errors will be detected to prevent misstatements in
          financial reporting. This condition, previously reported as a
          significant deficiency, has been reclassified as a material
          weakness.

      •   RRB’s current accounting procedures do not provide for periodic         Testing
          reconciliation of the general ledger with the benefit payment           disclosed no
          systems in which those transactions originate which is a                instances of
          significant deficiency in internal control.                             reportable
                                                                                  non-compliance.

      •   RRB management has completed action to strengthen controls
          over the social insurance fund balance.

       Report on Compliance with Laws and
       Regulations
   The OA’s audit of the RRB’s financial statements included tests of
   compliance with selected provisions of laws and regulations,
   including laws governing the use of budget authority, and other laws
   and regulations that could have a direct and material impact on the
   RRB’s basic financial statements.




      Railroad Retirement Board – Office of Inspector General                 7
                  Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                 The OA’s tests of compliance with selected provisions of laws and
                 regulations disclosed no instances of non-compliance that are
                 reportable under U.S. generally accepted government auditing
The most         standards or OMB guidance. However, the objective of the audit was
serious          not to provide an opinion on overall compliance with laws and
management       regulations and they did not express an opinion.
challenges
facing the
agency are:             Management and Performance Challenges
                        Facing the Railroad Retirement Board
•Oversight for
the NRRIT
                 Management and Performance Challenges Facing the Railroad
•Occupational    Retirement Board is published in RRB’s annual Performance and
Disabilities     Accountability Report. This statement is prepared pursuant to the
                 Reports Consolidation Act of 2000 and the requirements of the OMB
•Financial       Circular A-136. This Circular requires OIGs to identify the most serious
Reporting        management challenges facing their parent agency and to briefly
                 assess the agency’s progress in addressing those challenges.
•Information
Security         The following section summarizes each management and performance
                 challenge discussed in the statement.
•Safeguarding
Privacy
                 Oversight for Invested Assets of the Railroad Retirement Act
•Improper        Program
Payments
                 During FY 2008, the OIG raised concerns about the effectiveness of
                 oversight for the National Railroad Retirement Investment Trust
                 (NRRIT), a multi-billion dollar investment enterprise. The legislation
                 that created the trust precludes agency management and its Inspector
                 General from exercising their traditional roles as stewards of program
                 assets and independent watchdog, respectively. Recent turmoil in the
                 national financial markets makes this matter an acute concern since the
                 NRRIT holds and invests substantially all program assets upon which
                 the retirement, survivor and disability programs rely for future solvency.
                 No other organization, public or private, has assumed what would
                 otherwise be the OIG’s oversight role.

                 On March 31, 2008, the OIG released a “Statement of Concern”
                 discussing this issue in detail which is publicly available in the OIG’s
                 internet library (http://rrb.gov/oig/library.asp).




                    Railroad Retirement Board – Office of Inspector General                 8
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


   Occupational Disabilities

   Unlike the Social Security Act, the Railroad Retirement Act (RRA)
   permits certain railroad workers to qualify for an annuity if they are
   disabled from work in their regular railroad occupation. The threshold          The
   for qualification, which is lower than the standard for determining total       occupational
   and permanent disability under the Social Security Act, makes the               disability
   occupational disability program susceptible to fraud and abuse.                 program is
                                                                                   susceptible to
   The entitlement to occupational disabilities is established by Federal          fraud and
   statute. That statute also requires the RRB to establish occupational           abuse.
   disability standards with the cooperation of railroad employers and
   railroad employees. As a result, any successful reform initiative will
   require negotiation by both rail labor and rail management and possibly
   legislative change.

   Financial Accounting and Reporting

   Although the OA observed notable efforts to strengthen internal control
   over financial accounting and reporting during FY 2007, the RRB has
   been unable to sustain the improvements during FY 2008. The inability
   to correct, or sustain correction, of a significant deficiency is an
   indicator of material weakness.

   Information Technology Security

   The RRB is still in the process of developing an information security
   management program that complies with Federal requirements.
   Although the agency is making progress, this is a significant
   undertaking and can be expected to present a challenge during the
   coming years. The OIG identified this challenge through its ongoing
   oversight required by the Federal Information Security Management Act
   of 2002 (FISMA). This issue is discussed in more detail in Appendix D,
   Significant Matters.

   Safeguarding Privacy

   Information technology security is a critical part of an effective privacy
   program. As the RRB moves toward compliance with FISMA, it will
   also strengthen its privacy program. Corrective actions remain pending
   on many prior OIG audit recommendations concerning privacy issues.




      Railroad Retirement Board – Office of Inspector General                  9
                    Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                   Improper Payments

                   During FY 2007, the RRB paid nearly $10 billion in retirement, survivor
                   and disability benefits under the provisions of the RRA. Monitoring and
                   reducing improper payments is inherently challenging in a business
                   environment that makes benefit entitlement payments of such
The financial      magnitude under complex entitlement and computational regulations.
statement audit
disclosed                  Letter to Management – March 24, 2009
deficiencies in
internal control
over financial     On March 24, 2009, the OA issued the Fiscal Year 2008 Financial
accounting and     Statement Audit Letter to Management. This letter transmits OA’s
reporting.         memorandum on internal control communicating certain internal control
                   matters that came to the OA’s attention during the financial statement
                   audit.

                   During the financial statement audit, the OA detailed the following
                   areas of weakness in internal control that, in the aggregate, represent a
                   material weakness:

                      •    Transaction Documentation;
                      •    Controls Over Report Preparation;
                      •    Controls to Ensure Compliance with Requirements;
                      •    Review and Approval of Vouchers; and
                      •    Quality Assurance Process for Voucher Preparation.

                   The OA also identified several areas of control weakness which were
                   not considered to be material weaknesses or significant deficiencies:

                       •   Separation of Duties;
                       •   Password Protection;
                       •   Controls Over Social Insurance Reporting; and
                       •   Calculation of Medicare Premium Penalty Rates.

                   Management has agreed to take action regarding all 13 audit
                   recommendations offered to strengthen internal control.




                      Railroad Retirement Board – Office of Inspector General              10
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


          Audit of Internal Control Over Accounts
          Payable – March 31, 2009
   The OA’s report entitled Audit of Internal Control Over Accounts
   Payable was issued on March 31, 2009. The objective of this audit was
   to determine whether internal control was adequate to ensure that
   accounting for non-benefit, non-payroll, administrative expenses was
   complete, accurate and timely.

   The audit disclosed that internal controls over payments were not
   adequate to ensure that accounting for non-benefit, non-payroll
   administrative expenses was complete, accurate and timely because
   the controls were either not sufficient or not operating as designed.
   Auditors recommended that management strengthened controls in the
   following areas:

             •   Segregation of Duties;
             •   Payment Authorization;
             •   Medical Vendor Payment Functions;
             •   Audit Trails;
             •   Payment Documentation;
             •   Management Control and Related Reviews;
             •   Confidentiality of Employees’ Social Security Numbers;
             •   Policies and Procedures; and
             •   Electronic Receivers.

   In addition, they identified opportunities for improvement in the
   following areas:

            •    Timeliness of Payments; and
            •    Prompt Payment Act Quality Assurance Reviews.

   Management has agreed to take action regarding all 18 audit
   recommendations offered in this report.




      Railroad Retirement Board – Office of Inspector General             11
                    Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                         Retirement Experience of the Employees of
                         the Long Island Rail Road Under the Railroad
                         Retirement Act
                   On November 24, 2008, the Inspector General issued a briefing entitled
                   Retirement Experience of the Employees of the Long Island Rail Road
The disability
                   Under the Railroad Retirement Act. This document provided an
experience of      analysis of the retirement experience of employees of the Long Island
Long Island Rail   Rail Road (LIRR) within the context of the railroad retirement program
Road retirees      as a whole.
was much
different than     Older railroad workers who have met the age and service requirements
that of the        of the RRA may retire under the RRA’s non-disability provisions.
railroad           Younger railroad workers may be entitled to benefits under the
retirement         disability provisions of the RRA. Similar to the Social Security Act, the
population as a    RRA provides retirement benefits to individuals who are disabled from
whole.
                   all employment. Unlike the Social Security Act, the RRA also provides
                   benefits to individuals who are occupationally disabled. These
                   provisions provide benefits to persons who are disabled from the work
                   they perform in the railroad industry, but who might otherwise find
                   employment elsewhere.

                   The OIG analyzed all benefits awarded to former railroad workers
                   during calendar years 1990 to 2007. During that period the RRB made
                   242,435 benefit awards to the employees of 1,238 railroad employers.
                   The disability experience of LIRR retirees was much different than that
                   of the railroad retirement population as a whole.

                   During the period under analysis, annuities were awarded to 5,033
                   LIRR retirees, an average of 280 per year. About 65% of LIRR retirees
                   were awarded annuities by reason of occupational disability, more than
                   twice the 25% rate experienced by the railroad retirement program as a
                   whole.

                   In addition, the OIG’s analysis shows a continuous, steep, increase in
                   the proportion of occupational disability retirements among LIRR
                   retirees which is not seen among retirees of other railroads. The OIG
                   has shared these analytical results with the RRB, interested
                   Congressional offices and the General Accountability Office (GAO).




                      Railroad Retirement Board – Office of Inspector General             12
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



          American Recovery and Reinvestment
          Act of 2009
   On March 6, 2009, the OIG published its plan for oversight of RRB
   implementation of the provisions of the American Recovery and                The OIG
   Reinvestment Act of 2009 (Recovery Act). The Recovery Act, signed            issued a plan
   into law on February 17, 2009, establishes general requirements for          for oversight of
                                                                                the RRB’s
   management and reporting which are applicable to all Federal agencies
                                                                                implementation
   and appropriates funding from the general fund of the U.S. Treasury to       of the
   pay benefits to railroad workers and retirees as follows:                    American
                                                                                Recovery and
      •   A one-time $250 payment to most individuals who receive               Reinvestment
          benefits under the Railroad Retirement Act, totaling                  Act of 2009.
          approximately $135 million;
      •   13 additional weeks of unemployment benefits for certain
          railroad workers who exhaust their rights to the benefits
          normally provided under the Railroad Retirement
          Unemployment Insurance Act, not to exceed $20 million; and
      •   $1,480,000 to fund the additional administrative costs
          anticipated in connection with payment of additional benefits.

   The Recovery Act does not provide any supplemental funding for
   oversight activity by the OIG.

   The OIG developed a Recovery Act oversight plan articulating a plan of
   action for monitoring agency implementation of the Recovery Act on an
   ongoing basis. The OIG’s objective is to provide RRB management
   with information that will assist them in ensuring compliance,
   transparency and fiscal accountability.

   The OIG’s Recovery Act oversight plan is available in the OIG’s
   website library.

    As a result of its oversight initiative, the OIG suggested that RRB
    management include fraud alert warnings in benefit letters being
    mailed out in connection with the Recovery Act.




      Railroad Retirement Board – Office of Inspector General              13
                   Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                        Management Decisions and Implementation

                  The OIG tracks the status of corrective actions for all audit
                  recommendations. Office of Management and Budget Circular
The OIG tracks    No. A-50 (Revised) and the Inspector General Act Amendments of
the               1988 require the reporting of management decisions and corrective
implementation    actions for all audit recommendations.
of its
recommendations
to RRB                                 Management Decisions
management.
                   Requiring Management Decision on October 1, 2008              1
                   Pending Management Decision for New
                                                                                 0
                   Recommendations
                   Management Decision on Previous Recommendations               0
                   Recommendations Pending Management Decision on
                                                                                 1
                   March 31, 2009

                  In their September 30, 2008 Fiscal Year 2008 Evaluation of Information
                  Security at the Railroad Retirement Board, the OA recommended that
                  the Bureau of Information Services (BIS) develop a comprehensive
                  plan for testing and evaluation of the agency’s contractor operations.
                  BIS has taken this recommendation under advisement and is waiting
                  for RRB’s General Counsel to verify which agency contracts should be
                  considered for certification and accreditation as information systems in
                  compliance with FISMA requirements.


                                          Corrective Action
                   Recommendations Requiring Action on October 1, 2008          164
                   Recommendations Issued During Reporting Period               31
                   Corrective Actions Completed During Reporting Period         38
                   Recommendations Rejected During Reporting Period              0
                   Final Actions Pending on March 31, 2009                      157




                     Railroad Retirement Board – Office of Inspector General            14
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



          Office of Investigations
   The OI focuses its efforts and resources on RRB benefit program fraud.
   The OI's primary objective is to identify, investigate and refer for
   prosecution and monetary recovery action, cases of waste, fraud and
   abuse in RRB programs. The OI also seeks to prevent and deter
   program fraud by reporting systemic weakness in RRB operations and
   processes which it identifies through investigative work. In order to
   maximize the effect of its resources, OI continues to pursue
   cooperative investigative activities in coordination with other Inspectors
   General and law enforcement agencies, such the Federal Bureau of
   Investigation, the U.S. Secret Service, the Internal Revenue Service,
   and the Postal Inspection Service.


          Investigative Accomplishments

                        Action                  October 1, 2008 –
                                                 March 31, 2009

              Convictions                                29

              Civil Judgments                            12

              Indictments/Informations                   16

              Investigative Recoveries 1             $263,684

              Restitution and Fines                 $4,231,449

              Community Service Hours                   960
              Civil Damages and
                                                     $545,450
              Penalties
              Civil Complaints                           5

              Arrests                                    3
              Department of Justice
                                                         48
              Referrals

   1
    RRB benefits that are overpaid due to fraud and can be recouped through RRB
   administrative recovery action are expressed as investigative recoveries.



       Railroad Retirement Board – Office of Inspector General                    15
                       Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                       Investigative Caseload Data

                      During this semiannual reporting period, the OI reviewed 226 matters.
                      The major referral sources for these matters reviewed are listed below:
The OI reviewed
226 matters                  Source of Referral             Percentage
from a variety of
sources.                RRB Headquarters                        35%
                        Department of Justice                   21%
                        Hotline                                 16%
                        HHS-OIG                                  6%
                        OIG Developed                            6%
                        Other                                    6%
                        RRB Field Office                         5%
                        Other Federal Agencies                   2%
Thirty-five
percent of the          Palmetto                                 2%
OI’s case
referrals, for this     Railroad Employers                       1%
period, came
from RRB’s
headquarters in             Investigative Tools
Chicago, Illinois.
                      To gather evidence and further investigations, Special Agents have a
                      wide range of investigative tools including the Federal Grand Jury
                      procedure, the Inspector General Subpoena and the Trial Subpoena.
                      The following table summarizes the use of these investigative tools.


                                Type of Subpoena           Number Served

                        Inspector General Subpoena                45
                        Federal Grand Jury Subpoena               35
                        Trial Subpoena                             4




                         Railroad Retirement Board – Office of Inspector General             16
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



          REPRESENTATIVE INVESTIGATIONS
          OCTOBER 1, 2008 – MARCH 31, 2009

          Disability Investigations
    The OI conducts fraud investigations relating to the RRB's disability
                                                                                The OI obtained
    program. Railroad workers who are awarded a disability annuity by
                                                                                nine convictions
    the RRB are subject to work restrictions and earnings limitations.          and four civil
    Disability benefit investigations often involve sophisticated schemes to    judgments in
    hide disqualifying work activities from the RRB.                            disability cases.

    During this reporting period, the OI obtained nine convictions and four
    civil judgments in disability fraud cases. The defendants received
    sentences totaling five months of jail, 26 years of probation and 160
    hours of community service. They were ordered to pay $771,483 in
    restitution, $12,125 in fines and $107,985 in civil damages/penalties.

    Descriptions of several cases completed during this reporting period
    follow.

          Disability Annuitant Sentenced to Six Months of
          Probation for Cashing Duplicate Benefit Checks

   The RRB referred this case to the OIG after discovering that the
   annuitant had attempted to cash a duplicate RRB disability benefit
   check. The OI’s investigation revealed that the RRB disability annuitant     The defendants
   contacted his local District Office to report that his monthly disability    were ordered to
   check had been confiscated by a cashier at a check cashing facility.         pay a total of
   The OI determined that the cashier confiscated the check because the         $891,593 to the
   annuitant had attempted to cash a duplicate benefit check. Further           government.
   review of the annuitant’s payment history, revealed that the annuitant
   had a history of requesting duplicate RRB annuity checks.

   During an interview with Special Agents, the annuitant confessed to
   requesting and cashing duplicate RRB benefits checks. The annuitant
   was arrested and charged with theft in the State of Illinois. He pled
   guilty and was sentenced to six months of probation.




      Railroad Retirement Board – Office of Inspector General              17
 Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



       Routine Traffic Stop Leads to RRB Fraud Case

The OI received this case referral from the Illinois State Police. During
the course of a routine traffic stop, an Illinois State Police Officer found
the driver, a young woman, in possession of multiple identification
documents which bore identity information for a male. The Officer also
found a document in the vehicle which indicated that the male subject
was receiving RRB disability benefits. When questioned, the driver
admitted that the identity documents belonged to her deceased father.
The OI’s investigation revealed that the RRB disability annuitant died
on June 10, 2005 and that his daughter continued to collect his
disability annuity totaling $23,357 through April 2006.

This case was referred to the United State Attorney’s Office (USAO) for
the Northern District of Illinois. The daughter entered into a 24 month
Pre-Trial Diversion Agreement with the USAO for violation of Theft of
Government Funds. She agreed to make an initial $15,000 lump sum
payment and to pay the remaining $8,357 by the end of the agreement.

       Disability Annuitant Repays $72,000 Lump Sum

Special Agents investigated an RRB disability annuitant who owned
and operated his own railroad consulting business. Their investigation
revealed that during the period of May 2003 through February 2006 the
annuitant earned wages in excess of the allowable amount established
by the Railroad Retirement Act. The annuitant’s failure to report his
income to the RRB caused him to fraudulently receive $102,971 in
disability payments. The annuitant admitted to owing his own business
and specifically structuring his salary to avoid detection by the RRB.

This case was referred to the USAO for the Eastern District of
Wisconsin. The USAO filed an information against the annuitant for
violations of Failure to Report, False Claims and Statements. He pled
guilty and was sentenced to 12 months of probation, ordered to pay
$72,000 in restitution and assessed a $7,225 fine. The annuitant paid
full restitution in the amount of $72,000 at the time of his sentencing.




   Railroad Retirement Board – Office of Inspector General                18
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


          Disability Annuitant Defrauded the DOL and the
          RRB

    The U.S. Department of Labor, Office of Inspector General (DOL-OIG)
    discovered that the target of a DOL disability fraud investigation was
    also receiving an RRB disability annuity. A joint investigation was
    conducted by DOL-OIG, the United States Postal Inspection Service,
    the United States Postal Service, Office of Inspector General and the
    RRB-OIG. This investigation, which included surveillance and the
    execution of a search warrant, determined that the annuitant materially
    participated in the day-to-day operation of a sole proprietorship and
    actively concealed his income from the DOL and the RRB. The
    annuitant fraudulently received DOL worker’s compensation benefits
    and an RRB disability annuity for a period of more than seven years.

    The USAO for the District of Massachusetts filed an eight count
    indictment against the annuitant for Mail Fraud, Making False
    Statements to Obtain Federal Employee Compensation and False
    Statements. The annuitant pled guilty and entered into a plea
    agreement agreeing to three years of probation with the first six
    months served as electronic monitoring home confinement, $185,000
    in restitution to be divided between DOL ($123,500) and RRB
    ($61,500), a $2,000 fine and a special assessment of $800.

          Disability Annuitant Hid Self-Employment Activities
   Special Agents investigated a self-employed RRB disability annuitant
   who owned and operated a painting business. The annuitant initially
   reported that the business belonged to his spouse but the OI’s
   investigation revealed that the annuitant actually performed the
   physical labor and managed the day-to-day operations of the business.
   The annuitant admitted that he paid his spouse a salary in order to
   avoid reporting self-employment income to the RRB. The annuitant
   failed to report his work and earnings to the RRB and fraudulently
   received RRB disability payments.

   This case was referred to the USAO for the Eastern District of Virginia.
   The USAO filed a civil complaint against the annuitant and his spouse
   for violations of the False Claims Act. They entered into a Settlement
   Agreement and Consent Judgment agreeing to repay $110,000.




      Railroad Retirement Board – Office of Inspector General            19
                   Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                        Unemployment and Sickness Insurance
                        Investigations

                  Unemployment Insurance (UI) and Sickness Insurance (SI) benefit
                  fraud involves individuals claiming and receiving UI or SI benefits while
                  working and receiving wages, in violation of Federal law, from an
                  employer. The OI receives the majority of these cases from the RRB’s
The OI obtained   Disability, Sickness and Unemployment Benefits Division as a result of
seven             information developed through state wage matching programs. The
convictions and   RRB conducts computer wage matches with various States to identify
six civil         claimants who may have collected RRB administered unemployment or
judgments in UI   sickness insurance benefits on the same days they received wages
and SI fraud      from a private employer.
cases.
                  During this reporting period, the OI obtained seven convictions and six
                  civil judgments for UI and SI fraud. Defendants in these cases
                  received, in the aggregate, 18 years of probation and were ordered to
                  pay $57,536 in restitution, $4,225 in fines and $58,999 in civil
                  damages/penalties.

                  The following are examples of cases completed during this reporting
                  period.

                        Sickness Insurance Claimant Forged Doctor’s
The defendants
                        Signature
were ordered to
pay a total of    The OI initiated an investigation of an RRB sickness insurance claimant
$120,760 to the   based upon a referral from the National Passenger Railroad
government.       Corporation (Amtrak), Office of Inspector General. The subsequent
                  joint investigation revealed that the claimant falsified medical
                  documentation and forged her doctor’s signature in order to receive
                  both medical leave from Amtrak and RRB sickness insurance benefits.
                  The claimant fraudulently received $7,280 in RRB benefits.

                  This case was referred to the USAO for the District of Maryland. The
                  USAO filed a single count information against the claimant for making
                  False Statements. The claimant pled guilty and was sentenced to
                  36 months of probation and restitution in the amount of $7,280.




                     Railroad Retirement Board – Office of Inspector General             20
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


          Sickness Insurance Claimant to Pay Treble
          Damages

   The OI initiated an investigation of an RRB sickness insurance claimant
   based upon an agency referral. The RRB had conducted a computer
   wage match with the State of Florida. The wage match identified
   claimants who may have collected RRB administered sickness
   insurance benefits on the same days they received wages from a
   private employer.

   The OI determined that beginning January 2007 through June 2007 the
   claimant applied for RRB sickness insurance benefits on the same
   days he was working for a private employer. The claimant failed to
   report his work and earnings to the RRB and fraudulently received
   $5,016 in sickness insurance benefits.

   This case was referred to the USAO for the Southern District of
   Georgia. The RRB claimant entered into a Settlement Agreement for
   violations of the False Claims Act. He agreed to pay treble damages in
   the amount of $15,048 plus a $570 administrative penalty.

          Unemployment Insurance Claimant Failed to Report
          Wages
   The OI initiated this investigation of an RRB unemployment insurance
   claimant based upon an agency referral. The RRB had conducted a
   computer wage match with the State of Illinois. The wage match
   identified claimants who may have collected RRB administered
   unemployment insurance benefits on the same days they received
   wages from a private employer.

   The OI determined that beginning March 2007 through October 2007
   the claimant applied for RRB unemployment insurance benefits on the
   same days he was working for a private employer. The claimant failed
   to report his work and earnings to the RRB and fraudulently received
   $10,368 in unemployment insurance benefits.

   This case was referred to the USAO for the Northern District of Illinois.
   The USAO filed an information against the claimant for Theft of Public
   Money. The claimant was sentenced to two years of probation,
   restitution in the amount of $10,368 and a special $25 assessment fee.



      Railroad Retirement Board – Office of Inspector General             21
                 Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                       Retirement/Survivor Benefit and
                       Representative Payee Investigations

                 The Railroad Retirement Act provides retirement benefits for qualified
                 railroad workers and their families. RRB retirement/survivor benefit
The OI
obtained 11      and representative payee fraud typically involves the theft and/or
convictions      fraudulent cashing of retirement benefit checks by someone other than
and two civil    the authorized RRB annuitant. A second common retirement benefit
judgments in     fraud scenario involves an individual failing to report information to the
retirement/      RRB that may disqualify the annuitant from receiving benefits. During
survivor and     this reporting period, the OI obtained 11 convictions for these types of
representative   fraud cases. The defendants received sentences totaling almost 15
payee fraud      years in prison and 30 years of probation. They were also ordered to
cases.           pay $1,149,305 in restitution and $200 in fines. The OI had two civil
                 judgments worth $378,466 in damages and penalties.

                 Examples of cases completed during this reporting period follow.

                       Individual Robs Bank after her Mother’s RRB
                       Annuity is Stopped
                 The agency referred this case to the OI based upon a mortality match
                 between the Social Security Death Index and the agency’s beneficiary
                 database. This match indicated that an RRB beneficiary in current pay
                 status had actually passed away in October 1998.

                 The OI’s investigation revealed that the annuitant’s daughter
The              fraudulently collected her mother’s RRB widow annuity benefits
defendants       through a joint checking account from November 1998 through
were ordered     January 2007. It was further determined that after her mother’s RRB
to pay a total   benefits were suspended, the daughter robbed the bank where the
of $1,527,971    joint checking account was located. She was subsequently charged
to the
government.
                 and sentenced for this bank robbery in State Court.

                 This case was referred for criminal prosecution to the USAO for the
                 Southern District of Texas. The USAO filed an indictment charging the
                 daughter with Wire Fraud and Theft of Government Funds. She pled
                 guilty to one count and was sentenced to five years of probation,
                 $108,627 in restitution and a $100 special assessment. She was also
                 ordered to participate in a mental health program.



                   Railroad Retirement Board – Office of Inspector General               22
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


          Individual Steals Lifesavings from Widow
    This case was initiated based upon a referral from an RRB District
    Office. The OI’s investigation revealed that during the period of
    January 2005 through June 2007 an individual had embezzled
    approximately $392,000 from an 87 year old RRB widowed spouse
    annuitant. The OI determined that the defendant had submitted a
    forged RRB Change of Address form which caused the RRB to
    redirect the annuitant’s checks to the defendant’s personal residence.
    Additionally, the defendant utilized a fraudulent Power of Attorney to
    cash approximately $20,000 worth of RRB checks and to steal money
    from multiple bank accounts owned by the annuitant. The OI’s
    investigation revealed that the defendant used the stolen money to
    purchase luxury vehicles and property for herself. After the
    defendant’s arrest, the RRB annuitant was found abandoned and
    unable to walk, talk or care for herself.

    The defendant was tried in Cook County, Illinois District Court. She
    was found guilty on eight out of 12 counts for various financial crimes
    including Financial Exploitation of the Elderly/Disabled and was
    sentenced to 13 years of incarceration. During a parallel proceeding in
    Illinois Probate Court, the defendant was ordered to pay $297,000 in
    restitution to the annuitant’s estate.

          Annuitant’s Girlfriend Steals $40,430 in Benefits
   A California woman failed to report the death of her live-in boyfriend
   and fraudulently collected $40,430 in RRB retirement benefits. The
   OI’s investigation revealed that the annuitant passed away in
   November 2003; however, RRB continued to issue annuity checks in
   his name until January 2005. Through the use of subpoenas and
   document analysis, Special Agents determined that the annuitant’s
   former live-in girlfriend converted the annuitant’s RRB benefits for her
   own personal use.

   This case was referred to the USAO for the Central District of
   California. The subject pled guilty to violating Theft of Public Money
   and was sentenced to five years of probation, 800 hours of community
   service, $40,430 in restitution and a $100 special assessment.




      Railroad Retirement Board – Office of Inspector General                 23
 Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



      Representative Payee Misuses RRB Benefits
Based upon an RRB District Office referral, the OI initiated an
investigation against an individual who received RRB survivor benefit
funds, from June 1997 through November 2003, as a representative
payee to care for her disabled nephew. The OI’s subsequent
investigation revealed that the nephew had not lived with his aunt
since turning 18 in 1997 and was not aware that his aunt was receiving
benefits on his behalf. In fact, the nephew was unaware that she had
set up a bank account to receive direct deposits of his RRB benefit
checks. The nephew indicated that he had received some money from
his aunt during this time period but that she considered it a loan and he
paid her back.

This case was referred to the USAO for the Southern District of Ohio.
A felony information was filed against the aunt for Theft of Public
Money. Judgment was rendered against her and she was sentenced
to 5 months in prison, 5 months of home confinement, 3 years of
probation, $72,895 in restitution and a $100 special assessment.

      Nursing Home Notifies RRB of Potential Case

A nursing home staff member notified the RRB that survivor annuity
funds were not being used for the benefit of an elderly patient who was
an RRB annuitant. Subsequent investigation determined that from
September 2002 through January 2004, the annuitant’s daughter, in
her capacity as representative payee, had used the annuity funds for
her own personal expenses.

This case was referred to the USAO for Western District of Virginia.
The daughter pled guilty to Theft of Public Money and False
Statements and was ordered to serve 18 months in prison, three years
of supervised release, ordered to pay $6,209 in restitution to the
nursing home and assessed a $100 fee.




   Railroad Retirement Board – Office of Inspector General            24
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


          Railroad Medicare Investigations
   The Railroad Medicare program is a major area of RRB responsibility.
   The agency enrolls railroad beneficiaries for Medicare coverage and           The OI currently
   collects premiums for Part B supplemental medical insurance. RRB              has 35 Medicare
   also selects and monitors the single nationwide Medicare Part B               cases with an
   Carrier. The current Part B Carrier is Palmetto GBA (Palmetto). During        estimated loss of
   FY 2008, Palmetto paid approximately $844 million in benefits.                more than
                                                                                 $3.9 million.
   Medicare fraud consists of diverse schemes including billing for
   services not rendered, submitting charges for a greater level of service
   than was actually performed, billing for an entirely different service than
   was actually performed, billing for medically unnecessary services and
   other fraud activities.

   All of the OI’s active Medicare cases are being worked jointly with the
   U.S. Department of Health and Human Services, the Office of
   Personnel Management or other agencies responsible for investigating
   healthcare fraud. Interagency cooperation is imperative to effective law
   enforcement. To that end, the OI continued its outreach efforts to
   identify healthcare fraud matters which resulted in the Railroad
   Medicare program being defrauded. One activity that produced
   significant results was a data match with the Department of Health and
   Human Services, Office of Inspector General (HHS-OIG). The HHS-
   OIG matched summary claims data from Palmetto with its open case
   information and identified 256 cases in which it appears the Railroad
   Medicare program had paid fraudulent claims. The HHS-OIG
   management has instructed their investigators to contact the OI, to
   coordinate investigative activities and ensure that Railroad Medicare
   claims information is included in fraud loss calculations for those cases.
   As of March 31, 2009, the OI has received 13 referrals from the
   HHS-OIG as a result of this data match.

   The OI currently has 35 pending Medicare cases with an estimated loss
   of more than $3.9 million, and an additional 47 Medicare referrals under
   review.




      Railroad Retirement Board – Office of Inspector General               25
 Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



       Medicare Provider Sentenced to 57 Months in
       Prison and $2,236,575 in Restitution

This case was initiated based upon a referral from the HHS-OIG. A joint
investigation revealed that an ambulance service provider submitted
claims for advanced life support services when the patient’s medical
condition did not require that level of service. During the course of this
investigation, Special Agents discovered that the provider had failed to
report employment taxes to the Internal Revenue Service and had
embezzled funds from his employees’ benefit plan.

This case was referred to the USAO for the Southern District of Illinois.
The provider was indicted by a Federal Grand Jury for violating a
variety of Federal statutes including False Statements Regarding
Health Care Matters, Embezzlement from an Employee Health Plan,
Mail Fraud, Health Care Fraud, Failure to Pay Over Employment Taxes
and False Statement to the Department of Veteran Affairs. The
provider pled guilty and was sentenced to 57 months in prison, three
years supervised release and restitution in the amount of $2,236,575.




   Railroad Retirement Board – Office of Inspector General             26
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


          Civil Enforcement Results

    The OI also pursues civil actions to obtain judicial orders for the
    recovery of funds fraudulently obtained by annuitants or claimants.
                                                                                  Twelve civil
    These civil actions are typically brought under the provisions of the         fraud judgments
    False Claims Act. This statute allows the government to recover up to         will result in
    treble damages as well as $5,500 to $11,000 for each false claim              $545,450 being
    submitted. Some of these civil actions are pursued under the                  repaid to the
    Department of Justice’s Affirmative Civil Enforcement (ACE) program           government.
    which provides a fast track prosecution mechanism.

    During this period, a total of 12 civil judgments were entered by U.S.
    District Courts for RRB fraud cases that will result in $545,450 being
    repaid to the government.

    The ACE program continues to provide an efficient means to address
    fraud against RRB programs, particularly where the fraud losses are
    below the financial guidelines for criminal prosecution. It is an effective
    way to return fraud losses to the RRB’s trust funds and it also creates
    a deterrent again future fraud.

    The following is an example of an ACE case.

          Unemployment Claimant to Pay Double Damages
   The OI initiated an investigation of an RRB unemployment insurance
   claimant based upon an agency referral. The RRB had conducted a
   computer wage match with the State of Illinois. The wage match
   identified claimants who may have collected RRB administered
   unemployment insurance benefits on the same days they received
   wages from a private employer.

   The OI determined that during the period of November 2007 through
   April 2008 the claimant applied for RRB unemployment benefits on the
   same days he was working for a private employer. His failure to report
   these wages caused the RRB to pay him $5,073 in unemployment
   insurance benefits he was not eligible to receive.

   This case was referred to the USAO’s ACE unit for the Northern District
   of Illinois. The USAO filed a civil complaint for violation of the False
   Claims Act. The annuitant entered into a consent judgment agreeing to
   repay double damages in the amount of $10,146.


      Railroad Retirement Board – Office of Inspector General                27
                    Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                          Hotline Contacts
                    The OIG established its Hotline to receive complaints concerning
                    suspected fraud, waste and abuse in RRB programs and operations.
                    The Hotline provides an open line of communication for individuals to
The OIG
received 442        report suspected criminal activity, conflicts of interest and
Hotline contacts    mismanagement/waste of RRB funds.
during this
reporting period.   The OIG received 442 Hotline contacts during this reporting period.
                    The following table summarizes the subsequent Hotline referrals for
                    the period October 1, 2008 through March 31, 2009.


                                                             Number of Hotline
                           Referral or Other Activity
                                                                Contacts
                       RRB District or Regional Office               218
                       Other (Hang Ups, Misdirected
                                                                     101
                       Calls, Disconnections, etc.)
Hotline tips           Calls with Insufficient Information
accounted for                                                        53
                       to Make Appropriate Referrals
16% of the OIG’s
case referrals         OIG – Office of Investigations                42
during this            Railroad Medicare Carrier/ Durable
reporting period.      Medical Equipment Carrier
                                                                      9

                       Other Federal Agencies                         7
                       RRB Bureaus                                    7
                       Disposition Not Yet Determined,
                       Additional Information is Being                4
                       Obtained
                       Caller Attempting to Contact a
                       Railroad or Referred to a                      1
                       Railroad




                      Railroad Retirement Board – Office of Inspector General             28
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



          OTHER OVERSIGHT ACTIVITIES

          Railroad Medicare Benefit Integrity
    The OIG’s previous Semiannual Report to the Congress identified
    several notable areas of concern regarding Palmetto’s benefit integrity     The OIG alerted
    operations. On September 26, 2008, the OIG sent a memorandum to             the RRB and
    both agency management and the Centers for Medicare and Medicaid            CMS to critical
    Services (CMS) detailing these concerns. To date, the OIG has not           issues.
    received a formal response addressing these concerns.

    Pursuant to provisions in the Health Insurance Portability and
    Accountability Act of 1996, CMS transferred all fraud and abuse work,
    with the exception of Railroad Medicare claims, from Carriers and
    Fiscal Intermediaries to Program Safeguard Contractors (PSC).
    RRB’s Medicare Part B contractor, Palmetto, still performs these
    functions based upon a cost reimbursement contract. Both the RRB
    and CMS are signatories on this contract: RRB administers the
    contract and CMS funds it.

    Palmetto performs contract functions, including benefit integrity, to the
    extent they are funded by the contract. The funding for benefit integrity
    activities is less than what one would expect for a high risk program
    such as Medicare. The OIG believes that many of these concerns
    relate directly to CMS’s failure to invest adequate resources in
    Railroad Medicare benefit integrity.

    In 2007, CMS announced that it would transition all PSC work to
    Zoned Program Integrity Contractors (ZPIC). The procurement for
    ZPIC contracts is currently underway. It is unclear, at this point, how
    the ZPIC contracts will affect Railroad Medicare benefit integrity
    operations. The OIG understands that the current statement of work
    for ZPICs does not address Railroad Medicare Part B claims. The OIG
    believes that it is imperative that CMS provide adequate funding for
    Railroad Medicare benefit integrity operations and that CMS address
    the issue of ZPICs with the Railroad Retirement Board.

    The OIG continues to have concerns about the effectiveness of the
    benefit integrity process for the Railroad Medicare program.




      Railroad Retirement Board – Office of Inspector General             29
                      Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                           Occupational Disability Program
                     The RRB occupational disability program is a unique benefit for
                     railroad employees with generous benefits and a low threshold for
The occupational     eligibility. The agency approves over 98% of applicants. The OIG has
disability benefit   expressed its concerns that this program has qualities that render it
program is           susceptible to fraud and abuse.
susceptible to
fraud and abuse.
                     In previous Semiannual Reports to the Congress, the OIG has
                     highlighted its proactive oversight of the occupational disability
                     program. For example, based on a recommendation from the OIG, the
                     RRB has made changes to forms and correspondence requiring
                     annuitants to provide more information when they are engaged in self-
                     employment work or have an affiliation with a corporation. Agency
                     personnel notified the OIG that the revised forms are capturing the
                     intended information and more specifically some annuitants are
                     reporting their corporate ownership/involvement activity.

The OIG                    Occupational Disability Program Secondary
continues to
evaluate the               Medical Screening and Forms G-251a and
occupational               G-251b
disability
program.             On October 10, 2008, the OIG issued a memorandum to the Board’s
                     Chairman recommending changes to the RRB’s disability program.
                     These recommendations were proposed as a way to improve the
                     adjudication accuracy for occupational disabilities.

                     The OIG recommended that all future occupational disability applicants
                     be sent for a secondary medical screening prior to adjudication. It was
                     noted that in most instances, the RRB very often relies solely on
                     medical information submitted by the applicant’s doctor. The OIG
                     believes that the secondary screening will not only ensure proper
                     medical review but that it may also identify possible instances where
                     there is collusion between the applicant and their doctor.




                        Railroad Retirement Board – Office of Inspector General           30
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


   The OIG has found that the RRB rarely receives completed RRB Forms
   G-251a and G-251b. These forms are used by the RRB to request
   information from railroad employers regarding job duties performed by
   disability applicants. Lack of information regarding the duties               Medical
   performed by the applicant could lead to improper adjudication of             screening will
   occupational disabilities. The OIG recommended that the RRB require           strengthen the
   the disability applicant’s immediate supervisor to complete and certify       claims
   all RRB Forms G-251a or G-251b submitted in support of the railroad           evaluation
   worker’s application. The OIG further recommended that the RRB not            process.
   adjudicate disability claims without these forms. The OIG strongly
   believes if these forms are completed by the applicant’s immediate
   railroad supervisor, they would provide valuable information for
   disability examiners.

   The implementation of these recommendations would provide disability
   examiners with more precise information and support more accurate
   adjudication of occupational disability annuities.

          Occupational Disability Program Integrity
          Process
   On March 2, 2009, the OIG issued a memorandum to the Board                    The current
   recommending changes to the RRB’s disability program integrity                annual disability
   process. As part of their program integrity efforts, the RRB sends out        reminder
                                                                                 process could be
   annual Disability Reminder Notices to disabled annuitants. These
                                                                                 improved.
   forms advise annuitants that they are required to report certain
   information that would impact the annuitant’s benefit eligibility such as
   improved medical condition, any work (including self-employment or
   volunteer work at a family owned business), receipt of wages or
   anything of value for work performed by the annuitant, and various
   other events which could affect the annuitant’s disability benefits.
   Currently, these forms serve only as reminders. Annuitants are not
   required to submit a report or any sort of certified response unless one
   or more of the described events have occurred or will occur. The
   annuitant is directed to contact their local RRB District Office to report
   any such events.

   While the mailing of these forms to the annuitants certainly provides
   them with annual notice of their reporting responsibilities and potential
   criminal penalties, the OIG does not believe that this process enforces
   the reporting requirements strongly enough. The OIG recommends
   that the RRB amend the current disability reminder forms to include an


      Railroad Retirement Board – Office of Inspector General               31
 Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



annual questionnaire form requiring a certified response from all
disability annuitants. The OIG also recommends if the disability
annuitant fails to return the signed certification form within a reasonable
timeframe, that their disability annuity be suspended.

The OIG believes the implementation of this recommendation would
increase the number of individuals who accurately report work/earnings
or other information which may affect their eligibility. It would also help
to prevent and deter fraud. This recommendation is currently pending
agency review.




   Railroad Retirement Board – Office of Inspector General               32
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



          OUTREACH
   In addition to audit and investigative activities, OIG staff members
   perform outreach as a means to further the office’s mission. The
   following section provides examples of the outreach activities
   conducted during this reporting period.                                     The Inspector
                                                                               General made a
                                                                               presentation to
          Office of Inspector General                                          students
                                                                               majoring in
   On October 7, 2008, Former President George W. Bush signed the              Government
   Emmett Till Unsolved Civil Rights Crime Act of 2007. This Act               Oversight and
   authorizes Inspectors General and their staffs to offer assistance to the   Inspection at
   National Center for Missing and Exploited Children (National Center).       John Jay
                                                                               College of
   The RRB’s Inspector General is working with Inspectors General from
                                                                               Criminal Justice
   the Office of Personnel Management and the Nuclear Regulatory               in New York.
   Commission to coordinate the joint efforts of staff from the Inspector
   General community and the National Center to investigate cases of
   missing and exploited children.

   On December 2, 2008, the Inspector General made a presentation to
   students majoring in Government Oversight and Inspection at John Jay
   College of Criminal Justice in New York. His presentation focused on
   government auditing standards and issues pertinent to the Inspector
   General community.

          Office of Audit
                                                                               The OA
   The RRB’s occupational disability program has recently received             responds to
   attention from the national media and Congress. As a result of this         request from
   increased interest, the OA responded to many requests for information       members of
   about the RRB as well as supporting the efforts of other audit              Congress and
   organizations charged with reporting on the RRB’s disability program.       other Federal
                                                                               agencies
                                                                               relating to
      •   The OA staff provided support to the Government Accountability       RRB’s
          Office (GAO) in their ongoing audit of the RRB’s disability          programs and
          program. The OA provided background information about the            operations.
          disability program, coordinated case files for GAO’s review, and
          responded to questions about the RRB’s program and the OIG’s
          case review experience.




      Railroad Retirement Board – Office of Inspector General             33
 Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



   •   The OA served as liaison for the Social Security Administration’s
       OIG, facilitating their evaluation of the impact of disability
       processing on the Social Security trust funds. The OA provided
       background information, organized meetings and responded to
       questions about the RRB’s disability benefit programs and
       financing provisions.

The OA staff also attend meetings of key agency committees and
project teams to maintain current information about new projects and
existing initiatives. The OA representative compiles and maintains a
file of committee activities and decisions which are used by OIG staff
when assessing agency programs.

       Information Technology Steering Committee -This committee
       provides ongoing assessment of all new and existing IT projects,
       identifies critical issues and frames them from management and
       technical perspectives.

       Information Security and Privacy Committee - This committee
       was established to facilitate compliance with FISMA and is
       involved in managing privacy issues for the agency.

       National Toll-Free Telephone Service Project - When
       complete, the National Toll-Free Telephone Service project will
       establish a single toll-free telephone number to facilitate public
       contact with agency personnel. This project will replace the
       existing system with a combined voice and data system.

       Office of Investigations
On March 3, 2009, the Assistant Inspector General for Investigations
and a Special Agent provided a presentation to about 30 HHS-OIG
Special Agents at their regional training conference in Charleston,
South Carolina. The HHS-OIG requested this presentation to
familiarize their staff with the Railroad Medicare program and OI’s
staff/operations.

On March 17, 2009, an OI staff member met with the Legal Programs
Coordinator and the Health Care Fraud Coordinator for the Executive
Office of United States Attorneys. They discussed the RRB-OIG’s
successful usage of the Department of Justice’s ACE program and
national coordination of Railroad Medicare cases. The OIG greatly


   Railroad Retirement Board – Office of Inspector General               34
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009


   appreciates the Department of Justice’s continued support of its
   investigative efforts.
                                                                               OI staff
   Additionally, OI staff participated in a variety of Medicare related        participated in
   meetings including several task forces. These task forces provide an        a variety of
                                                                               Medicare
   open forum for health care fraud related communications and foster a
                                                                               related
   team approach to health care fraud investigations. Members of the           meetings
   various task forces include representatives from the Department of          including
   Justice, the Centers for Medicare and Medicaid Services, the                several task
   Department of Health and Human Services, Office of Inspector                forces.
   General, the Office of Personnel Management, Office of Inspector
   General, the Federal Bureau of Investigations, various State Police,
   various Medicaid Fraud Control Units and Medicare Program
   Safeguard Contractors. Since Railroad Medicare is a national program,
   members of the OI staff attend task forces in several judicial districts.
   Participation in Task Force meetings allows the Special Agents to
   develop the necessary contacts and information to ensure that Railroad
   Medicare fraud losses will be included in any cases. They also provide
   an opportunity for the OI Special Agents to become familiar with the
   most recent fraud schemes.

   The OI is an active member of the National Health Care Anti-Fraud
   Association.




      Railroad Retirement Board – Office of Inspector General            35
                    Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



                          OPERATIONAL ISSUES
                   The two operational issues addressed, involve areas which impact the
                   OIG’s ability to effectively carryout its oversight role. These issues
                   would have to be remedied with legislative change.

                          Reimbursement to the Agency
Removal of the
current
appropriations     Current appropriations law requires the OIG to reimburse the RRB for
language would     indirect costs that include office space, equipment, communications,
permit             supplies, maintenance and administrative services. This process
negotiations       requires the use of agency and the OIG’s resources for reconciliation
between the        and accounting that could be better utilized for improving agency
agency and the     operations. The OIG is the only Federal Office of Inspector General
OIG for a more
                   that cannot negotiate a service level agreement with its parent agency.
efficient way to
address the
                   Removal of the current language would permit negotiations between
issue of support   the RRB and the OIG for a more efficient way to address the issue of
costs.             support costs.

                          National Railroad Investment Trust

                   The National Railroad Retirement Investment Trust (NRRIT) was
                   established by the Railroad Retirement and Survivors’ Improvement Act
                   of 2001 (RRSIA) to manage and invest Railroad Retirement assets. As
                   of February 28, 2009, the RRB’s investments in the NRRIT were valued
                   at approximately $18.3 billion.

                   Although the Trust is a tax-exempt entity independent of the Federal
                   government, the RRSIA requires that the Trust report to the RRB. This
                   office has previously expressed concerns about the RRB’s passive
                   relationship with the NRRIT and has identified the RRB’s oversight in
                   this area as a critical issue. However, the RRSIA does not provide the
                   OIG with oversight authority to conduct audits and investigations of the
                   NRRIT. This office believes that independent oversight of the Trust’s
                   operations is necessary to ensure that sufficient reporting mechanisms
                   are in place and to ensure that the Trustees are fulfilling their fiduciary
                   responsibilities.




                      Railroad Retirement Board – Office of Inspector General               36
Semiannual Report to the Congress · October 1, 2008 – March 31, 2009



          LEGISLATIVE & REGULATORY REVIEW
    The Inspector General Act requires the Inspector General to review
    existing and proposed legislation and regulations relating to the
    programs and operations of the agency. The OIG has no comments
    for this reporting period.




      Railroad Retirement Board – Office of Inspector General            37
 Semiannual Report to the Congress · October 1, 2008 – March 31, 2009

APPENDICES

(A) Office of Inspector General Reports and Other Publicly
Available Documents Issued                                       39

(B) Audit Reports with Questioned Costs or with
Recommendations that Funds Be Put to Better Use                  40

(C) Report on Receivables, Waivers and Recoveries
      Office of Investigations                                   41
      Office of Audit                                            42

(D) Significant Matters                                          43

(E) RRB Management Reports                                       44

(F) Reporting Requirements                                       50

(G) Acronyms                                                     51

(H) Legal Citations                                              52




   Railroad Retirement Board – Office of Inspector General       38
APPENDIX A
OFFICE OF INSPECTOR GENERAL REPORTS
AND OTHER PUBLICLY AVAILABLE
DOCUMENTS ISSUED

• Management and Performance Challenges Facing the Railroad
Retirement Board, October 17, 2008 1

• Opinion on the Financial Statements of the Railroad Retirement
Board for the Fiscal Year ending September 30, 2008,
November 6, 2008 2

• Office of Inspector General’s Briefing entitled Retirement
Experience of the Long Island Rail Road Under the Railroad
Retirement Act, November 24, 2008

• Office of Inspector General’s Oversight Plan American Recovery
and Reinvestment Act of 2009, March 6, 2009

• Fiscal Year 2008 Financial Statement Audit Letter to Management,
March 24, 2009

• Audit of Internal Control Over Accounts Payable, March 31, 2009

All audits and other publicly available documents are available on our
website at www.rrb.gov/oig


1
 Published as pages 105 – 109 of the Railroad Retirement Board’s
Fiscal Year 2008 Performance and Accountability Report
2
 Published as pages 93 – 101 of the Railroad Retirement Board’s
Fiscal Year 2008 Performance and Accountability Report




Railroad Retirement Board – Office of Inspector General             39
APPENDIX B
AUDIT REPORTS WITH QUESTIONED COSTS OR WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                 Audit Reports    Amount of      Amount of
                                                with Questioned   Questioned    Unsupported
                                                     Costs          Costs          Costs
   A. For which no management decision had
   been made by October 1, 2008
                                                        0                 0           0
   B. Which were issued from October 1, 2008
   through March 31, 2009
                                                        0                 0           0
   Subtotal (A + B)                                     0                 0           0
   C. For which a management decision was
   made between October 1, 2008 through                 0                 0           0
   March 31, 2009
   (i) dollar value of disallowed costs                 0                 0           0
   (ii) dollar value of costs not disallowed            0                 0           0
   D. For which no management decision had
   been made by March 31, 2009
                                                        0                 0           0
   E. Report for which no management decision
   was made within six months of issuance
                                                        0                 0           0



                                                              Audit Reports With
                                                              Recommendations        Dollar
                                                             that Funds Be Put to    Value
                                                                   Better Use
   A. For which no management decision had been made by
   October 1, 2008
                                                                      0                   0
   B. Which were issued from October 1, 2008 through March
   31, 2009
                                                                      1             $600,000
   C. Subtotal (A + B)
                                                                      1             $600,000
   (i) dollar value of disallowed costs
                                                                      0                   0
   (ii) dollar value of costs not disallowed
                                                                      0                   0
   D. For which no management decision had been made by
   March 31, 2009
                                                                      0                   0
   E. Report for which no management decision was made
   within six months of issuance
                                                                      0                   0




Railroad Retirement Board – Office of Inspector General                                        40
APPENDIX C
REPORT ON RECEIVABLES, WAIVERS AND RECOVERIES


The FY 1999 appropriations language for OIG requires the reporting of additional information
concerning actual collections, offsets and funds put to better use achieved as a result of
Inspector General activities.


OFFICE OF INVESTIGATIONS
Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:



                                                 Amount
                          Fiscal Year
                                                Recovered
                             1999                   $ 855,655
                             2000                  $1,038,134
                             2001                   $ 990,356
                             2002                   $ 785,843
                             2003                   $ 947,876
                             2004                   $ 646,273
                             2005                   $ 844,183
                             2006                  $1,281,680
                             2007                  $1,347,049
                             2008                  $1,389,489
                       10/1/08 – 3/31/09             $523,072




Railroad Retirement Board – Office of Inspector General                                      41
APPENDIX C - CONTINUED



                                          OFFICE OF AUDIT
                          Funds to be       Funds
                                                          Receivables               Recoveries
               Report     put to better    Agreed by
                                                          Established    Waivers     to Date 1
                               use        Management
                  99-03        $50,850          $50,850        $50,850    $50,490         $360
                  99-14        $83,000          $83,000        $34,423                  $30,584
                  99-16    $48,000,000      $48,000,000                             $13,300,000
                  99-17    $11,000,000      $11,000,000                              $1,604,545
                  00-16       $235,000         $235,000                               $235,846
                  04-06       $821,000         $821,000       $604,429     $5,564     $629,688
                  04-10       $400,000         $400,000                               $761,151
                  05-03     $1,800,000       $1,800,000     $4,738,668 $282,075      $1,471,583
                  05-06        $10,000          $10,000                                 $42,915
                  05-07     $1,070,000       $1,070,000        $300.52                $6,658.82
                  05-10     $2,600,000       $2,600,000                  $311,000
                  06-04       $257,000         $257,000
                  06-05          $2,100          $2,100
                  06-06       $200,000         $200,000        $13,712                  $20,369
                  09-02       $600,000         $600,000

1
    Both overpayments and underpayments are included in this column.




Railroad Retirement Board – Office of Inspector General                                           42
APPENDIX D
SIGNIFICANT MATTERS

The OIG has identified deficiencies in controls over financial reporting and information security
as significant matters. A summary of the issues and related recommendations for corrective
action follow.

          Current Reporting Period
During the current semiannual period, the OIG identified a material weakness in internal
control over financial reporting. As a result, financial accounting controls cannot be relied upon
to ensure that material errors will be detected to prevent misstatements in financial reporting.
Although agency managers worked to strengthen controls during FY 2007, the improvement
was not sustained and the condition deteriorated during FY 2008.

The OIG has recommended action to strengthen controls in the following areas:

      •   Compliance with requirements         February 9, 2007     Report # 07-01, #11
      •   Transaction documentation            March 6, 2008        Report #08-01, #11
      •   Report preparation, and              March 6, 2008        Report #08-01, #9
      •   Journal voucher preparation and      March 24, 2009       Report #09-02, #2, #3, #4
           recording


          Prior Reporting Period
During FY 2008 the OIG evaluated information security pursuant to the provisions of the
Federal Information Security Management Act (FISMA) and concluded that the RRB has not
yet achieved an effective FISMA-compliant security program.

The OIG has recommended corrective action in the following areas:

    • Certification and accreditation of       September 30, 2004   Report #04-11, #9
       information systems.                    September 30, 2008   Report #08-05, #1
    • Access controls                          February 5, 2002     Report #02-04, #13, 20, 21
                                               September 7, 2004    Report #04-08, #1
                                               June 7, 2005         Report: DSD LAN, #6, #7
                                               June 7, 2005         Report: DSD SCAN, #6
                                               June 7, 2005         Report: DSD Web #16
                                               July 14, 2005        Report #05-08, #10
                                               September 27, 2007   Report #07-08, #1
    • Implement an effective risk assessment   July 14, 2005        Report #05-08, #4
        process                                September 30, 2008   Report #08-05,#2
    • Implement a testing and evaluation       February 5, 2002     Report #02-04, #3
        program                                December 27, 2002    Report #03-02,#1, #2, #3, #4
                                               September 27, 2007   Report #07-08,#2

Railroad Retirement Board – Office of Inspector General                                            43
APPENDIX E – RRB MANAGEMENT REPORTS
THIS APPENDIX WAS PREPARED BY RRB MANAGEMENT


                           MANAGEMENT REPORT ON FINAL ACTION
                            ON AUDITS WITH DISALLOWED COSTS

FOR THE 6-MONTH PERIOD ENDING                                                Number of            Disallowed
MARCH 31, 2009                                                              audit reports            costs

A.   Audit reports, with management decisions, on
     which final action had not been taken at the                                  1               $ 2,8351
     beginning of the period.

B.   Audit reports on which management decisions
     were made during the period.                                                  0                 $0

C.   Total audit reports pending final action during
     the period. (A + B)                                                           1               $ 2,835

D.   Audit reports on which final action was taken
     during the period.

     1.      Recoveries

             (a) Collections and offsets                                           0                 $0

             (b) Property                                                          0                 $0

             (c) Other                                                             0                 $0

     2.      Write-offs                                                            0                 $0

     3.      Total of 1 and 2                                                      0                 $0

E.   Audit reports needing final action at the end of
     the period (C - D.3)                                                          1               $ 2,835




     1.   Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




Railroad Retirement Board – Office of Inspector General                                                        44
      APPENDIX E – CONTINUED
              MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
          WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
                FOR THE 6-MONTH PERIOD ENDING MARCH 31, 2009

                                                                        Number of                  Funds to be put
                                                                       audit reports                to better use
A.   Audit reports, with management decisions, on
     which final action had not been taken at the
     beginning of the period.                                                 4                     $ 3,072,1001

B.   Audit reports on which management decisions
     were made during the period.                                             1                     $   600,0002

C.   Total audit reports pending final action during
     the period. (A + B)                                                      5                     $ 3,672,100

D.   Audit reports on which final action was taken
     during the period.

     1.    Value of recommendations implemented
           (completed)                                                                              $    0

     2.    Value of recommendations that
           management concluded should not or
           could not be implemented (completed)                               0                     $     0

     3.    Total of 1 and 2                                                   0                     $

E.   Audit reports needing final action at the end of
     the period (C - D.3)                                                     5                     $ 3,672,100



            1.   Comprised of the following amounts: $1,800,000 from Audit Report 05-03,
                 “Evaluation of the RRB’s Processing of Disability Earnings Cases,” $1,070,000
                 from Audit Report 05-07, “Evaluation of Survivor Annuity Work Deductions at the
                 Railroad Retirement Board,” $2,100 from Audit Report 06-05, “Review of
                 Compliance with Provisions of the Railroad Retirement Act Governing the Initial
                 Award of Benefits,” and $200,000 from Audit Report 06-06, “Review of the
                 Termination and Suspension of Benefits Paid Under the Railroad Retirement
                 Act.”
            2.   Comprised of $600,000 from Audit Report 09-02, “Fiscal Year 2008 Financial
                 Statement Audit Letter to Management.”




      Railroad Retirement Board – Office of Inspector General                                45
        APPENDIX E – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                                 AS OF MARCH 31, 2009

                                                     Disallowed Funds to be put
Report                                     Date         costs    to better use       Reason action not completed
Review of Non-Priority Correspondence     3/13/97      NONE         NONE        The Office of Programs is using a new
Handling (97-09)                                                                system implemented in FY08 to track
                                                                                correspondence and should close the
                                                                                remaining recommendation in FY09.

Information Systems Security (INFOSEC)    6/28/00      NONE          NONE       The agency has upgraded its security
Report                                                                          capabilities and hopes to close the last
                                                                                open recommendation in FY09.

Fiscal Year 2000 Financial Statement      2/23/01      NONE          NONE       While help desk procedures have been
Audit (01-03)                                                                   upgraded, the Bureau of Information
                                                                                Services is still developing reports to
                                                                                close the last open recommendation.

Review of Information Security at the      2/5/02      NONE          NONE       Information Services has closed 22
Railroad Retirement Board (02-04)                                               recommendations and hopes to close
                                                                                the remaining 6 in FY09.

Evaluation of the Self-Assessment         12/27/02     NONE          NONE       Information Services has completed
Process for Information System Security                                         one certification and accreditation
(03-02)                                                                         review with contractor support and
                                                                                scheduled them for other major
                                                                                systems in FY09.

Inspection of Unverified Records in the   3/20/03      NONE          NONE       Programs reviewed all 20,000 records
RRB’s Employment Data Maintenance                                               and are using a recently implemented
System (03-06)                                                                  tracking system to close the last two
                                                                                recommendations in FY09 and FY10.

Review of the Systems Development Life     9/8/03      NONE          NONE       Information Services is using system
Cycle for End-User Computing (03-10)                                            and procedural changes to address
                                                                                and close the remaining item in FY09.

Review of Accounts Receivable             7/29/04      NONE          NONE       Sampling procedures currently under
Established Under the Railroad                                                  development by Programs should close
Unemployment Insurance Act (04-06)                                              the last recommendation early in FY09.




        Railroad Retirement Board – Office of Inspector General                           46
        APPENDIX E – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                                 AS OF MARCH 31, 2009
                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use       Reason action not completed
Review of Mainframe Access Controls at        9/7/04      NONE         NONE        Since a formalized quality assurance
the Application Level – RRB-Developed                                              program is cost prohibitive for these
Applications Controlled by ACF2 and                                                applications, Information Services is
IDMS (04-08)                                                                       developing alternative approaches.

Fiscal Year 2004 Evaluation of Information 9/30/04        NONE          NONE        Information Systems has closed eight
Security at the Railroad Retirement Board                                           of nine recommendations, and plans to
(04-11)                                                                             close the last one in FY09.

Review of RRB Compliance with Federal         12/6/04     NONE          NONE        Information Services completed an
Laws and Regulations on Competitive                                                 initial feasibility study of sourcing
Sourcing (05-02)                                                                    information technology activities but
                                                                                    continues to investigate alternate
                                                                                    approaches and use contractor
                                                                                    support.

Evaluation of the RRB’s Processing of         2/11/05     NONE        $1,800,000    A review of almost 17,000 cases from
Disability Earnings Cases (05-03)                                                   2001 indicated most did not require
                                                                                    adjustment. Thus far, 606 cases have
                                                                                    been adjusted with the remaining 73
                                                                                    targeted for completion in FY09.

Review of Internal Control Over the           5/5/05      NONE          NONE        The Chief Actuary has developed a
Actuarial Projection Process (05-04)                                                workforce development plan, with
                                                                                    needed revisions expected to close the
                                                                                    remaining open item.

Review of Customer Service Performance        5/17/05     NONE          NONE        System changes being implemented
Measures for Timeliness of Initial Railroad                                         should address the three remaining
Retirement Annuity Payments (05-05)                                                 open recommendations in FY09.

Review of LAN, LAN Security Scan and          6/7/05      NONE          NONE        These contractor-prepared confidential
Web-based Applications (DSD)                                                        reports contained 45
                                                                                    recommendations, with two-thirds
                                                                                    closed thus far.

Evaluation of Survivor Annuity Work           7/14/05     NONE        $1,070,000    A major database conversion project
Deductions at the Railroad Retirement                                               delayed work on the last open item but
Board (05-07)                                                                       it should be completed early in FY09.

Review of Access Controls in the End-         7/18/05     NONE          NONE        Information Services has closed 12 of
User Computing General Support System                                               15 recommendations in this
(05-08)                                                                             confidential report. The remaining three
                                                                                    are targeted for completion in FY09.

Review of Internal Control Over Budget        9/6/05     $2,835         NONE        Fiscal Operations instituted procedures
Execution (05-09)                                                                   that have closed out one of the two
                                                                                    items. Documentation has been
                                                                                    submitted for review to the OIG.




        Railroad Retirement Board – Office of Inspector General                               47
        APPENDIX E – CONTINUED
                  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                    OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                                AS OF MARCH 31, 2009
                                                     Disallowed Funds to be put
Report                                      Date        costs    to better use        Reason action not completed
Fiscal Year 2005 Evaluation of Information 9/28/05     NONE         NONE        Information Services is developing
Security at the Railroad Retirement Board                                       policies and procedures needed to
(05-11)                                                                         close the remaining two items early in
                                                                                FY09.

Accuracy and Reliability of GPRA           1/30/06     NONE          NONE        Programs has closed three of the
Performance Measures: Timeliness of                                              seven recommendations, with the
Non-Disability Survivor Annuity Payments                                         remainder scheduled for completion in
(06-03)                                                                          FY09.

Review of Compliance with the Provisions   4/12/06     NONE          $2,100      Programs staff closed four of the five
of the Railroad Retirement Act Governing                                         recommendations. The remaining one
the Initial Award of Benefits (06-05)                                            is being reevaluated in light of ongoing
                                                                                 systems development and data
                                                                                 optimization projects.

Review of the Termination and              5/24/06     NONE         $200,000     Programming work on a referral system
Suspension of Benefits Paid Under the                                            is pending that should close out the
Railroad Retirement Act (06-06)                                                  remaining open recommendation.

Review of Incident Handling and Reporting 8/24/06      NONE          NONE        Information Services implemented two
at the Railroad Retirement Board (06-09)                                         recommendations, with the remaining
                                                                                 seven slated for completion in FY09
                                                                                 and one in FY10.

Fiscal Year 2006 Financial Statement       2/9/07      NONE          NONE        The agency has closed 19 of the 20
Audit (07-01)                                                                    recommendations, with action on the
                                                                                 final one to be verified as part of the
                                                                                 FY08 financial statement audit.

Audit of the DAISY/CHICO Component         3/9/07      NONE          NONE        Action on two of the remaining three
Application of the RRA Benefit Payment                                           open recommendations requires
Major Application System (07-02)                                                 programming changes, with the last
                                                                                 one dependent on cooperation with
                                                                                 another agency on Medicare premium
                                                                                 collection.

Audit of the State Wage Match Data         3/28/07     NONE          NONE        Programs plans to complete action to
Transmission Controls (07-04)                                                    address the two remaining open
                                                                                 recommendations in FY09.

Evaluation of the Railroad Retirement      7/30/07     NONE          NONE        Of the 15 recommendation, 5 have
Board’s Privacy Program (07-06)                                                  been closed with the remainder
                                                                                 targeted for completion during FY09.




        Railroad Retirement Board – Office of Inspector General                            48
        APPENDIX E – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                                 AS OF MARCH 31, 2009
                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use       Reason action not completed
Audit of Federal Income Taxes Withheld        7/30/07     NONE         NONE        Three of the six recommendations
from Railroad Retirement Annuities (07-                                            have been closed, with the rest
07)                                                                                targeted for completion in FY09.

Fiscal Year 2007 Evaluation of Information 9/27/07        NONE         NONE       One of the eight recommendations has
Security at the Railroad Retirement Board                                         been closed with the rest targeted for
(07-08)                                                                           completion in FY09.

Audit of Controls to Safeguard Sensitive      9/27/07     NONE         NONE       Of the 22 recommendations, 5 have
Personally Identifiable Information (07-09)                                       been implemented with work on most
                                                                                  of the remaining ones to be finished in
                                                                                  FY09.
Fiscal Year 2007 Financial Statement          3/6/08      NONE         NONE       Of the 25 recommendations, 20 have
Audit Letter to Management (08-01)                                                been implemented with work on the
                                                                                  remaining ones to be finished in FY09.




        Railroad Retirement Board – Office of Inspector General                             49
APPENDIX F
REPORTING REQUIREMENTS

Act Reference       Inspector General Reporting Requirements                 Page(s)
Section 4(a) (2)    Review of Legislation and Regulations                        37
Section 5(a) (1)    Significant Problems, Abuses and Deficiencies              7 – 12
Section 5(a) (2)    Recommendations With Respect to Significant                    43
                    Problems, Abuses and Deficiencies
Section 5(a) (3)    Prior Significant Recommendations Not Yet                      43
                    Implemented
Section 5(a) (4)    Matters Referred to Prosecutive Authorities                 4, 15
Section 5(a) (5)    Instances Where Information Was Refused                     None
Section 5(a) (6)    List of Audit Reports                                          39
Section 5(a) (7)    Summary of Each Significant Report                          6–8
Section 5(a) (8)    Statistical Tables on Management Decisions on                  40
                    Questioned Costs
Section 5(a) (9)    Statistical Tables on Management Decisions on                  40
                    Recommendations That Funds Be Put to Better
                    Use
Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                     14
                    Old for Which No Management Decision Has
                    Been Made
Section 5(a) (11)   Description and Explanation for Any Significant             None
                    Revised Management Decision
Section 5(a) (12)   Information on Any Significant Management                   None
                    Decisions With Which the Inspector General
                    Disagrees



Act Reference       Management Reporting Requirements                          Page(s)
Section 5(b) (1)    Comments Deemed Appropriate                              Transmittal
                                                                                  Letter
Section 5(b) (2)    Statistical Table on Final Action on Disallowed                  44
                    Costs
Section 5(b) (3)    Statistical Table on Final Action to Put Funds to                45
                    Better Use
Section 5(b) (4)    Statement on Audit Reports With Final Action               46 – 49
                    Pending




Railroad Retirement Board – Office of Inspector General                 50
APPENDIX G
ACRONYMS

Acronym        Description
ACE            Affirmative Civil Enforcement
BIS            Bureau of Information Services
CMS            Centers for Medicare and Medicaid Services
DOL            U.S. Department of Labor
DOL– OIG       U.S. Department of Labor, Office Inspector General
FISMA          Federal Information Security Management Act of 2002
FY             Fiscal Year
GAO            Government Accountability Office
HHS – OIG      U.S. Department of Health and Human Services,
               Office of Inspector General
LIRR           Long Island Rail Road
NRRIT          National Railroad Retirement Investment Trust
OA             United States Railroad Retirement Board, Office of
               Inspector General – Office of Audit
OI             United States Railroad Retirement Board, Office of
               Inspector General – Office of Investigations
OIG            United States Railroad Retirement Board, Office of
               Inspector General
OMB            Office of Management and Budget
PSC            Program Safeguard Contractor
RRA            Railroad Retirement Act
RRB            Railroad Retirement Board
RRSIA          Railroad Retirement and Survivors’ Improvement Act
               of 2001
SI             Sickness Insurance
UI             Unemployment Insurance
USAO           United States Attorney’s Office
ZPIC           Zoned Program Integrity Contractors




Railroad Retirement Board – Office of Inspector General         51
APPENDIX H
LEGAL
CITATIONS


Federal:

American Recovery and Reinvestment Act of 2009 – P.L. 111-5

Embezzlement from an Employee Health Plan – 18 U.S.C. § 664

Emmett Till Unsolved Civil Rights Crime Act of 2007 – P.L. 110-344

Failure to Pay Over Employment Taxes – 26 U.S.C. § 7202

Failure to Report, False Claims and Statements – 45 U.S.C. § 231l

False Claims Act – 31 U.S.C. §§ 3729 - 3733

False Statements – 18 U.S.C. § 1001 et. seq.

False Statements Regarding Health Care Matters – 18 U.S.C. § 1035

Federal Information Security Management Act of 2002 – 44 U.S.C.
§ 3531, et. seq.

Freedom of Information Act – 5 U.S.C. § 552

Health Care Fraud – 18 U.S.C. § 1347

Health Insurance Portability and Accountability Act of 1996 –
P.L. 104 – 191

Inspector General Act of 1978, as amended – 5 U.S.C. App. 3

Inspector General Act Amendments of 1988 – 5 U.S.C. App. 3

Mail Fraud – 18 U.S.C. § 1341

Making False Statements to Obtain Federal Employee
Compensation - 18 U.S.C. § 1920

Prompt Payment Act – P.L. 97-177, 31 U.S.C. § 3901 et. seq.

Railroad Retirement Act – 45 U.S.C. § 231, et. seq.




Railroad Retirement Board – Office of Inspector General              52
APPENDIX H – CONTINUED
LEGAL
CITATIONS

Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.

Railroad Retirement and Survivors’ Improvement Act of 2001 –
P.L. 107-90

Reports Consolidation Act of 2000 – P.L. 106-531

Social Security Act – 42 U.S.C. § Ch. 7

Theft of Public Money/Government Funds – 18 U.S.C. § 641

Wire Fraud – 18 U.S.C. § 1343

State:
Financial Exploitation of the Elderly/Disabled -Illinois State Criminal
Statute 720-5/16-1.3(a)

Theft-Property – Illinois State Criminal Statue 720-5.0/16-1-A-1




Railroad Retirement Board – Office of Inspector General                   53
                         REPORT

         FRAUD, WASTE AND ABUSE




                Call the OIG Hotline:
                       1-800-772-4258

               E-mail: Hotline@oig.rrb.gov

  The OIG cannot ensure confidentiality to persons who provide
information via e-mail. Do not send information by e-mail that you
                 do not want a third party to read.

             Write: RRB-OIG Hotline Officer
                   844 N. Rush Street
              Chicago, Illinois 60611-2092
